No:
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
SCOTT TRADER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I certify that on this 6th day of August, 2021, in accordance with SUP. CT. R.
29, 1 copy of the (1) Petition for Writ of Certiorari, (2) Motion for Leave to Proceed In
Forma Pauperis, (3) Certificate of Service, and (4) Declaration Verifying Timely
Filing, were served electronically with the Clerk of the Court using CM/ECF and sent
by third party commercial carrier for delivery upon the Solicitor General of the United
States, Room 5614, Department of Justice, 950 Pennsylvania Avenue, N.W.,
Washington, D.C. 20530-0001.
MICHAEL CARUSO
Federal Public Defender
Fort Lauderdale, Florida
August 6, 2021

By:

_s/ Bernardo Lopez_____________
Bernardo Lopez
Assistant Federal Public Defender
One East Broward Boulevard, Suite 1100
Fort Lauderdale, Florida 33301-1842
Telephone No. (954) 356-7436

